ES, IG-99-001, X-33 Funding Issues
X-33 FUNDING ISSUES
IG-99-001
Executive Summary
Introduction
The X-33 Program is a National Aeronautics and Space Administration
(NASA)/industry joint effort to further develop and demonstrate technologies
needed to build a Reusable Launch Vehicle (RLV) to replace the Space
]Shuttle.  NASA awarded Cooperative Agreement NCC8-115 on July 2, 1996,
requiring NASA and industry shared resource contributions of $1.1 billion,
to Lockheed-Martin Skunk Works (LMSW).  Five industry and 14 Government
partners are working together on the X-33 cooperative agreement.
NASA provides funds to industry partners through more than 160 periodic
payment milestones specified in the cooperative agreement.  For each payment
milestone, NASA and LMSW agreed on a value ($8,000 to $75 million), a
payment date (estimated completion date), and performance criteria for
determining milestone completion.  For LMSW only, the milestones specify
both an estimated completion date and a later "billing date."   From July
1996 through December 2000, NASA will pay $912 million (about 80 percent)
for the X-33,(1) and LMSW and other industry
partners will pay about $211 million (about 20 percent).
(2)
Objectives
The overall audit objective was to determine whether NASA's use of a
cooperative agreement on the X-33 Program was an appropriate management
approach for this major launch vehicle program and whether the agreement
effectively defined roles, responsibilities, and rights of the Government
and industry partners.  Our conclusions on the overall audit objective are
not addressed in this report but will be provided in a subsequent report.
A subobjective was to determine whether NASA's implementation and management
of the X-33 Program are consistent with congressional guidance.  In this
regard, we evaluated the appropriateness of NASA's X-33 funding concept to
determine  whether  it adversely affected Agency reports and financial
statements submitted to   Congress  and  whether  it complied with
congressionally mandated fund controls, including the Antideficiency Act.
This audit report provides our conclusions on this subobjective.
See Appendix A for additional information on audit scope and
methodology.  Appendix B identifies prior related Office of Inspector
General (OIG) audits and other reviews of NASA's Reusable Launch Vehicle
Program, which includes the X-33.
Results of Audit
Obligations of funds on the X-33 Program were not recorded in a timely
manner, resulting in potential violations of fiscal statutes, including the
Antideficiency Act and the Agency fund control system.  Specifically,
Marshall Space Flight Center (MSFC) established an arrangement with LMSW,
within the X-33 cooperative agreement, to delay billing for completed and
Government-accepted milestones until the following fiscal year (FY).  MSFC
concluded that, under this arrangement, an obligation does not occur until
LMSW submits an invoice for payment and that the Limitation of Government
Obligation provisions within the cooperative agreement ensures this
arrangement is compliant with fiscal statutes.  In our opinion, an
obligation occurs and should be recorded not later than NASA's acceptance of
the completed milestone work.  For X-33 partners other than LMSW, NASA
obligates funds on the cooperative agreement before work is performed and
adjusts funding as work progresses.  As a result of the funding practice
for LMSW milestones, MSFC had unrecorded yearend obligations, costs, and
liabilities totaling $22 million in FY 1996 and $34 million in FY 1997.
Therefore, MSFC and Agency reports and financial statements did not
accurately reflect the financial status of the X-33 Program.
Recommendations
We recommended that:
NASA review the funding and payment practices used on the X-33 Program to:
determine whether the use of current year funds to pay for work completed and accepted in prior years constitute violations of the Agency fund control system or the Antideficiency Act;
determine availability of funds to cover unrecorded obligations for completed milestone work; and
identify needed corrective actions to ensure that obligations are promptly recorded and billings are not delayed.
NASA adjust financial records, as appropriate, to ensure that MSFC and Agency yearend financial reports and statements fully and accurately disclose the financial status of the X-33 Program, including any contingent liabilities.
Management's Response
Management partially concurred with Recommendation 1, agreeing only to do a
study of the appropriateness of existing X-33 funding and payment
practices.  Management did not concur with any of the remaining
recommendations for specific corrective actions, pending completion of the
study in December 1998.  Management agreed to take corrective actions
deemed appropriate by the completed study.
Evaluation of Management's Response
Management's planned actions are responsive to the intent of Recommendation
1a.  Upon completion of the study, we request that management submit a copy
of the study results and provide additional comments identifying corrective
actions taken or planned on each recommendation.  We will keep all
recommendations open and review the responsiveness and adequacy of
management's corrective actions upon completion of the study.
FOOTNOTES
1.  The X-33 Program and most of the related RLV work is
scheduled to be completed in 42 months -- by December 1999.  A small RLV
effort, requiring about $31 million in NASA funding, will continue through
December 2000.
2.  OIG Partnerships and Alliances Report, P&A-97-001,
"NASA Cooperative Agreements With Large Commercial Firms," dated August 22,
1997, addressed the high NASA contribution (80 percent) in relation to that of
the industry partners (20 percent).  The report also noted that the NASA
contribution is understated because certain noncash contributions are not
included in NASA's contribution.